I____

No.
*

I

I
IN THE
SUPREME COURT OF THE UNITED STATES

ROBERTO MARTINEZ

— PETITIONER

(Your Name)

VS.
UNITED STATES OF -AMERICA

— RESPONDENT(S)

PROOF OF SERVICE

do swear or declare that on this date,
I) ROBERTO MARTINEZ
i__, 2021 , as required by Supreme Court Rule 29 I have
June 1

= S'1

served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party ■
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Solicitor General of the United States, Room 5614, Department
of Justice, 950 Pennsylvania Ave. N.W., Washington

~vn n

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

Junes1, 2021

20Xt
(Signature)

20530-0001

